U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

February 2, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Jamal Clinton aka Moreless v. United States of America,
S.Ct. No. 20-6807

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December
30, 2020, and placed on the docket on January 8, 2021. The government’s response is due on
February 8, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 10, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-6807
CLINTON, JAMAL, AKA MORELESS
USA

JESSE M. SIEGEL
THE LAW OFFICE OF JESSE M. SIEGEL
THE WOOLWORTH BUILDING
233 BROADWAY
SUITE 707
NEW YORK, NY 10279
212-207-9009
JESSEMSIEGEL@AOL.COM

